VISA Cardholder Agreement
Terms and Conditions and Truth in Lending Disclosure
This Credit Card Agreement governs the Mountain Pacific Bank
VISA Platinum Card. In this agreement, the words “you” and
“your” mean any person (if more than one, individually and
jointly) who is responsible for your account. “The Account”
means the VISA Card as the case may be. “We,” “us” and “our”
refer to the bank, and “Card” refers to the VISA card(s) we issue
to you. “Account” refers to your VISA Account with us.
1. Use of Your Account. We have sent or will send you the
Card you requested. You agree to sign the Card promptly upon
receipt. By signing or using the Card or your Account, you
agree to be bound by all of the terms of this Agreement. You
may use the Card to lease or purchase goods (Purchases) and to
obtain services on credit from any person who accepts the Card
and to obtain loans from us (Cash Advances) or from anyone
who will accept the Card. You may also transfer balances from
other credit card accounts to your Account (Balance Transfers).
We do not promise that everyone will honor the Card, and we
have no obligation to you if anyone refuses to accept the Card.
We will not be liable if any merchant, bank or other person does
not honor your Card, or fails to provide any service made
available to you by us. From time to time you may be required
to furnish identification when your Card is presented for use.
2. Obtaining Credit Without a Card. If you or someone you
authorize to use your Account signs a sales slip, obtains a Cash
Advance, or gives your Account number to make a Purchase or
obtain a Cash Advance without presenting the Card (such as for
a mail order or a telephone purchase), the legal effect will be the
same as if the Card itself was used by you.
3. Credits for Refunds. If you obtain a refund, adjustment or
credit for a Purchase made with the Card, you will receive a
credit to your Account, not cash.
4. Return of Cards. We have the right to repossess at any time
the Card that we give you. You agree to surrender it at our
request.
5. Obligations on Your Account. You authorize us to pay and
charge your Account for all Balance Transfers, Purchases and
Cash Advances resulting from the use of the Card or your
Account. You agree to pay us for all of these Balance Transfers,
Purchases and Cash Advances. You also agree to pay us the
finance charges that are assessed on your

account, and any other amounts that you owe us according to
the terms of this Agreement. Each person who signed the
application to open an Account with us or otherwise agrees is
obligated to pay the full amount owed on it. We may require
that you pay the full amount without our first asking the other
person(s) to pay.
We are not obligated to authorize a transaction using your
Card or your Account if (1) your credit line has been
exceeded or would be exceeded by the transaction; (2) you
have failed to pay amounts owed to us when due or have
failed to follow any of the terms of this Agreement; (3) you
have notified us or we have determined that the Card has or
may have been lost or stolen or that there may be
unauthorized access to your Account; or (4) you are in
default or your rights under this Agreement have expired or
been revoked.
6. Your Credit Line. Your credit line is shown on the
folder containing your Card and/or on each monthly periodic
statement. You agree not to make any Balance Transfers,
Purchases or obtain any Cash Advances that would make the
unpaid balance of your Account exceed this limit. If you do,
we may demand that you pay the excess and you agree to pay
it immediately. You also agree that we may change or cancel
your credit line at any time without prior notice and without
affecting your obligation to pay amounts that you owe under
this Agreement. Any such change or cancellation may result
from our periodic review of the performance on your
Account and/or consumer credit reports we may obtain from
consumer reporting agencies.
7. Periodic Statement. All accounts will receive monthly
statements except those noted below. Accounts with a zero
balance and no activity will not receive a statement. An
account with a credit balance over $1.00 will receive 6
statements reflecting this balance. An account with a balance
(positive or negative, excluding unpaid finance charges) of
less than $1.00 will receive one statement reflecting this
balance. You agree to notify us if you do not receive any
particular statement.
8. Payments on Your Account. All payments must be
made by check or money order payable in US dollars and
delivered or mailed to us at the address indicated on your
periodic statement. Any such payment may be returned
without applying it to your Account for

reasons including that it is postdated, incomplete, the numeric
amount is different than the written amount or it is not made
payable as indicated on your periodic statement. We may, but
are not obligated to, accept any payment that is not drawn on
the US Post Office or a financial institution located in the United
States. We can accept late or partial payments and payments
that are marked with restrictive endorsements such as “payment
in full,” without losing any of our rights.
9. Minimum Monthly Payment. Each month, you may pay all
or any part of your balance, except you must pay us at least your
minimum payment by the due date of the payment. Your
monthly payment is three percent (3%) of the outstanding
balance of your Account with a minimum payment of $25.00
plus, at our option, any amount you owe in excess of your credit
line, plus any amounts past due.
10. Application of Payments. The amount of any payment on
your Account will be applied in the following order: Cash
Advance Finance Charges, Retail Purchases Finance Charges,
Cash Advance Fees Billed, Retail Purchase Fees Billed, Cash
Advance Minimum Payment Due, Retail Purchase Minimum
Payment Due, Cash Advance Previous Balance, Retail Purchases
Previous Balance, New Cash Advance Activity, New Retail
Purchase Activity, Cash Advance Unbilled Fees and Retail
Purchases Unbilled Fees.
11. Credit Balances and Overpayments. If we accept a
payment for an amount in excess of your outstanding balance,
your available credit line will not be increased by the amount of
such overpayment nor shall we be required to authorize
transactions for an amount in excess of your assigned credit line.
If there is a credit balance on your Account or you make an
overpayment which creates a credit balance, we will apply it to
future amounts owed.
12. Finance Charges. Finance charges on your Account will be
determined by applying a periodic rate to an average daily
balance and assessing transaction fees. The circumstances under
which these will be assessed and an explanation of how they are
determined are described below.
Finance Charges Determined by Periodic Rate. To compute this
portion of the finance charge, an average daily balance is
determined by dividing the sum of the daily balances during the
billing cycle by the number of days in the cycle. The average
daily balance is then multiplied by its monthly periodic rate. The
results of these calculations are then added together to determine
this portion of the finance charge.
Average Daily Balance. The average daily balance is
determined by dividing the sum of the daily balances during the
billing cycle by the number of days in the cycle.
Annual Percentage Rates. The Annual Percentage Rate is fixed
at 12% on purchases and 15% on Cash Advances
Finance Charges Accrual and Grace Period. To avoid
incurring an additional Finance Charge on the balance of Credit
Purchases and on any new Credit Purchases appearing on your
next statement, you must pay the New Balance shown on the
statement on or before the Payment Due Date. The Finance
Charge for a billing cycle are computed by applying the monthly
Periodic Rate to the average daily balance of Credit Purchases
which is determined by dividing the sum of the sum of the daily
balances during the billing cycle by the number of days in the
cycle. Each daily balance is determined by adding to the
Previous Balance of Credit Purchases any new Credit Purchases
posted to your account and subtracting any payments as received
and credits as posted

to your account, but excluding any unpaid Finance Charges.
Subject to the above, the grace period for the New Balance of
Credit Purchases extends to the Payment Due Date. To avoid
incurring an additional Finance Charge on the balance of
Cash Advances you must pay the New Balance shown on the
statement on or before the Payment Due Date. The Finance
Charges for a billing cycle are computed by applying the
monthly Periodic Rate to the average daily balance of Cash
Advances, which is determined by dividing the sum of the
daily balances during the billing cycle by the number of days
in the cycle. Each daily balance of Cash Advances is
determined by dividing the sum of the daily balances during
the billing cycle by the number of days in the cycle. Each
daily balance of Cash Advances is determined by adding to
the Previous Balance of Cash Advances, any new Cash
Advances as of the transaction date or the date or the first day
of the billing cycle in which is posted, whichever is later, and
subtracting any payments as received and credit as posted to
your account, but excluding any unpaid Finance Charges.
Subject to the above, no grace period is provided on Cash
Advances.
13. Other Charges.
Late Payment Charges. For any minimum monthly periodic
payment which is not paid within 10 days after the closing
date subsequent to the payment due date as shown on your
periodic statement, you may be charged and you agree to pay
us, late payment charge is $20.00
Cash Advance Fee: For each Cash Advance we assess a
Cash Advance fee of 3%, with a minimum charge of $10.00
and a maximum charge of $50.00.
On Business Accounts a $20 over limit fee may be assessed if
the balance is 5% above extended credit.
Collection Costs and Attorneys’ Fees. As permitted by
applicable law, you agree to pay all court and other
reasonable costs of collection actually incurred by us in the
collection of any amounts you owe us under this Agreement
in the event we refer your Account after it is in default to an
attorney who is not our salaried employee to collect such
amounts. In no event shall the costs charged exceed any legal
limitations.
14. Default. Your Account will be in default and we can
require that the outstanding balance be paid (a right of
acceleration), if (1) you exceed the credit limit in effect on
your Account; (2) you fail to pay any amount owed under this
Agreement when due; or (3) your ability to pay us is
materially impaired (including, but not limited to, bankruptcy
or insolvency proceedings that are initiated by or against
you). We do not have to notify you or demand payment in
order to take this action, unless applicable law requires that
we give you a notice of a right to cure your default. Your
Account will not be accelerated in the event of default if not
permitted by state law.
15. Cancellation. We can at any time without prior notice
cancel your privileges under this Agreement (and we can list
your Card in warning bulletins). We
Will notify you of a cancellation. You agree that you will not
try to make any Purchase or Balance Transfer or obtain any
Cash Advance after you have been notified that your
privilege to use the Card has been canceled. You may cancel
your Account at any time by notifying us and cutting all
Cards issued on your Account in half. You will remain liable

for any charges made to your Account (by you, a joint Account
cardholder, or anyone to whom you have lent, given, or had
issued a Card on your Account) prior to your cutting all Cards in
half and notifying us of the cancellation. For any cancellation of
your Account, we can require that you return to us all Cards
issued on your Account.
16. Demand of Payment
If you are an insider, pursuant to Federal law, and
notwithstanding any other provision of the Note or Credit
Agreement, this extension of credit will become due and
payable at the option of the Lender at any time Borrower
becomes indebted to any and all other banks in an aggregate
amount greater than the amount the borrower would be
permitted to borrow under the provisions in the federal statues
governing loans to insiders.
17. No Security Interest. If you now or in the future have
other loans from us, collateral securing those other loans will
also secure your obligations under this Agreement except for
your household goods and your primary dwelling, and except as
otherwise prohibited by law.
18. Credit Reporting. You agree that a consumer credit report
may be requested periodically from one or more consumer
reporting agencies and used in connection with your application
and any update, renewal or extension of credit on your Account.
If you request, you will be informed whether any consumer
report was requested and, if so, of the name and address of the
consumer reporting agency that furnished the report. You agree
that we may exchange credit information about you with others
in connection with your application, your Account, and any
credit we extend to you.
19. Foreign Currency Transactions. All payments by you will
be made in US dollars. Charges incurred in currencies other
than US dollars will be converted to US dollars at the rate in
effect at the time such charges are converted by us or our agent
or other authorized party making such conversion.
20. Amendments to this Agreement. We can amend any of
the terms of this Agreement at any time, and we can set the
effective date for any such amendment. We will provide you
with at least 30 days written notice to the address provided by
you for the mailing of your monthly statements. The new terms
will affect all outstanding balances to the extent allowed by law.
21. When this Agreement becomes Effective. This agreement
becomes effective upon our approval of your account.
22. Delayed Enforcement; Severability. We may delay
enforcing our rights under this Agreement without losing any of
them. The invalidity of any provisions of this Agreement shall
not affect the validity of any other provision.
23. Applicable Law. The laws of the United States and the
State of Washington apply to this Agreement and to your use of
the Card and your Account.

24. Inquiries or questions. You may address any billing
errors, inquiries or questions which you have about your
Account to:
Customer Service
PO Box 30310
Tampa Florida 33630
or you may call us at 425-263-3500. If you telephone instead
of writing, you may lose certain rights the law gives you to
dispute billing errors.
25. Liability for Unauthorized Use. You may be liable for
the unauthorized use of your Card. You will not be liable for
unauthorized use that occurs after you notify Mountain
Pacific Bank by writing to us at the above address or calling
us at the above number, and notifying us of the loss, theft, or
possible unauthorized use of your Card. In any case, your
liability for unauthorized use will not exceed $50.00. You
agree that anyone who is issued a Card for your Account (or
anyone to whom you lend or give your Card) is authorized to
make charges to your Account
to the same extent as you and that such authority cannot be
limited by you. Such authority will continue until you revoke
it by notifying us, obtaining the Card in your physical
possession, and if it is a Card issued to an authorized user, by
also cutting it in half and canceling the card in writing.
Annual Membership Fees. Your account is a VISA
Platinum, the annual membership fee is $20. This fee may be
waived if you have a qualifying banking package of services
with Mountain Pacific Bank. This may also be waived if
annual purchases exceed $500 or when card is used for
purchases at least 12 times during the year.
Replacement Card. You may notify us in the event you
request a replacement Card.
26. Disclaimer of Liability. We offer the Card, the Account
and related services in our own interests and disclaim any
duty or responsibility other than those expressly set forth in
this Agreement.
Notices. All notices required to be given by us in connection
with your Account shall be deemed to have been delivered on
the day when they are deposited in the U.S. Mail.
27. VISA Rules and Regulations; Conflicts. Cardholder
and Issuer agree to abide by all applicable rules and
regulations of VISA USA Inc (VISA) as applicable as well
as all applicable laws and changes to them. If there is any
conflict between the provisions of this Agreement and the
rules and obligations of VISA, the rules and regulations of
VISA shall control. In order to continue to provide these
services, Visa cards may not be used for any illegal
transactions.

